Audit Report




OIG-11-076
SAFETY AND SOUNDNESS: Material Loss Review of AmTrust
Bank
July 6, 2011




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Causes of AmTrust’s Failure ......................................................................... 2
      AmTrust’s Loan Portfolio Consisted Largely of ADC and High-Risk
      Residential Mortgage Loans...................................................................... 3
      AmTrust’s Board and Management Did Not Establish Appropriate Risk
      Management Controls ............................................................................. 5

    OTS’s Supervision of AmTrust ......................................................................          6
      OTS Should Have Taken Stronger Supervisory Action Sooner to
      Address AmTrust’s Repeated Issues .........................................................               7
      OTS Appropriately Used PCA ...................................................................            9
      OTS’s Internal Failed Bank Review ............................................................           10

    Recommendations ....................................................................................... 10

Appendices

    Appendix    1:      Objectives, Scope, and Methodology ......................................              13
    Appendix    2:      Background..........................................................................   15
    Appendix    3:      Management Response .........................................................          17
    Appendix    4:      Major Contributors to This Report ...........................................          18
    Appendix    5:      Report Distribution. ...............................................................   19

Abbreviations

    ADC                 acquisition, development, and construction
    C&D order           cease and desist order
    FDIC                Federal Deposit Insurance Corporation
    MOU                 memorandum of understanding
    MRBA                matter requiring board attention
    OTS                 Office of the Thrift Supervision
    OIG                 Office of Inspector General
    PCA                 prompt corrective action
    ROE                 report of examination




                        Material Loss Review of AmTrust Bank (OIG-11-076)                               Page i
This page intentionally left blank.
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                       July 6, 2011

                       John E. Bowman, Acting Director
                       Office of Thrift Supervision

                       This report presents the results of our review of the failure of
                       AmTrust Bank (AmTrust), headquartered in Cleveland, Ohio,
                       and of the Office of Thrift Supervision’s (OTS) supervision of
                       the institution. OTS closed AmTrust and appointed the Federal
                       Deposit Insurance Corporation (FDIC) as receiver on
                       December 4, 2009. This review was mandated by section 38(k)
                       of the Federal Deposit Insurance Act because of the magnitude
                       of AmTrust’s estimated loss to the Deposit Insurance Fund. 1 As
                       of March 31, 2011, FDIC estimated that the loss to the Deposit
                       Insurance Fund would be $2.5 billion.

                       Our objectives were to determine the causes of AmTrust’s
                       failure; assess OTS’s supervision of the thrift, including
                       implementation of the prompt corrective action (PCA) 2
                       provisions of section 38; and make recommendations for
                       preventing such a loss in the future. To accomplish these
                       objectives, we reviewed the supervisory files and interviewed
                       OTS and FDIC officials. We conducted our fieldwork from
                       February 2010 through June 2010. Appendix 1 contains a more
                       detailed description of our review objectives, scope, and
                       methodology. Appendix 2 contains background information on
                       AmTrust’s history and OTS’s assessment fees and examination
                       hours.

1
  At the time of AmTrust’s failure, section 38(k) defined a loss as material if it exceeded the greater
of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k)
defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million
for calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Certain terms that are underlined when first used in this report, are defined in, Safety and
Soundness: Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.

                       Material Loss Review of AmTrust Bank (OIG-11-076)                           Page 1
                       In brief, the primary cause of AmTrust’s failure was significant
                       losses in its loan portfolio. The loans were highly concentrated
                       in acquisition, development, and construction (ADC) loans and
                       high-risk residential mortgage loans, and also highly
                       concentrated in several depressed real estate markets. With
                       regard to its supervision of AmTrust, OTS did not take
                       appropriate action to prevent a material loss to the Deposit
                       Insurance Fund. However, as AmTrust’s capital levels
                       deteriorated, OTS did impose timely PCA restrictions on the
                       thrift. Also, in accordance with its policy, OTS conducted a
                       failed bank review of AmTrust and similarly concluded
                       AmTrust’s failure was caused by high concentrations of ADC
                       loans and high-risk residential mortgage loans.

                       We are not making any new recommendations in this report,
                       but are reaffirming recommendations made in our previous
                       material loss reviews (MLR) of OTS-regulated thrifts, where we
                       identified similar causes of failure and had similar findings
                       regarding OTS’s supervision. In a written response, OTS stated
                       that it has implemented actions for the recommendations in the
                       prior OIG MLR reports and internally prepared assessments of
                       other thrift failures. OTS’s response is provided as appendix 3.
                       It should be noted that pursuant to P.L. 111-203, the functions
                       of OTS are to transfer to other federal banking agencies on
                       July 21, 2011.


Causes of AmTrust’s Failure
                       AmTrust’s failure resulted primarily from significant losses in its
                       loan portfolio, which had high concentrations of ADC loans and
                       high-risk residential mortgage loans, including interest-only,
                       reduced documentation, 3 and subprime loans. The majority of
                       AmTrust’s ADC and residential mortgage loans were
                       concentrated in Arizona, California, Florida, and Nevada, among
                       the most depressed real estate markets during the current
                       economic crisis.

3
  A type of mortgage loan in which an institution sets reduced or minimal documentation standards
to substantiate the borrower's income and assets. This type of loan is also commonly referred to as
"low doc/no doc," "no income/no asset," "stated income," or "stated assets."

                       Material Loss Review of AmTrust Bank (OIG-11-076)                         Page 2
AmTrust’s Loan Portfolio Consisted Largely of ADC and High-
Risk Residential Mortgage Loans

AmTrust’s high concentration of ADC and high-risk residential
loans resulted in substantial losses for the thrift when
conditions in the real estate market deteriorated. AmTrust’s net
losses exceeded $513 million in 2008 and $308 million in
2009.

AmTrust’s ADC lending more than tripled in 5 years, from
$1 billion in 2001 to its peak of $3.4 billion by 2006, when
AmTrust ceased ADC lending operations because of poor loan
performance. By that time, however, AmTrust accumulated a
high concentration in poorly performing ADC loans and losses
associated with those loans continued into subsequent years.
Figure 1 below shows the growth and delinquency of AmTrust’s
ADC loans.




Material Loss Review of AmTrust Bank (OIG-11-076)              Page 3
     Figure 1. Growth and Delinquency of AmTrust’s ADC Loans, 2001-2009
               (dollars in billions)




Source: OIG analysis of FDIC statistics on depository institutions.

   In the early 2000s, AmTrust also expanded its residential
   lending program and became one of the largest mortgage loan
   originators in the country.

   As shown in figure 2, AmTrust’s residential loans, including
   nontraditional mortgage loans, grew from $7.6 billion in 2003
   to $12.1 billion in 2006. Figure 2 also shows that as the real
   estate market declined, the delinquency rate for AmTrust’s
   residential loans increased from 2 percent of total residential
   loans in 2003 ($182 million) to its peak of 14 percent of total
   residential loans in 2009 ($940 million).




   Material Loss Review of AmTrust Bank (OIG-11-076)                      Page 4
                        Figure 2. Growth and Delinquency of AmTrust’s Residential Loan, 2003-
                                  2009 (dollars in billions)




                       Source: OIG analysis of FDIC statistics on depository institutions.


                       AmTrust’s Board and Management Did Not Establish
                       Appropriate Risk Management Controls

                       AmTrust management failed to adequately monitor risks posed
                       by its ADC and high-risk residential mortgage loans. AmTrust’s
                       board and management established concentration limits for the
                       ADC portfolio, but those limits proved to be too high.
                       AmTrust’s board and management also did not impose
                       concentration limits on its residential mortgage portfolios. 4
                       Furthermore, AmTrust management failed to maintain adequate
                       capital to compensate for its high-risk lending.

4
  OTS defines a concentration as a group of similar types of assets or liabilities that, when
aggregated, exceeds 25 percent of a thrift’s risk-based capital (core capital plus allowance for loan
and lease losses (ALLL)). From 2006 through 2008, AmTrust’s concentration in ADC loans ranged
from 189 to 213 percent of risk-based capital, and interest-only residential loans ranged from 261to
282 percent of risk-based capital.

                       Material Loss Review of AmTrust Bank (OIG-11-076)                           Page 5
                      In its 2006 report of examination (ROE), OTS noted that
                      AmTrust’s ADC loan risk management practices did not adhere
                      to OTS’s recommended best practices. 5 OTS said AmTrust’s
                      board and management needed to revise those practices that
                      were inappropriate for the size and complexity of its ADC
                      portfolio. The practices needing revision included AmTrust’s
                      liberal lending and lack of loan committee oversight of the loan
                      portfolio. OTS also recommended AmTrust improve its internal
                      review function, reporting of high-risk loans, maintenance of
                      loan working files, monitoring of ADC lot sales activities, and
                      appraisal practices.

                      In the 2005 through 2008 ROEs, OTS was also concerned with
                      the adequacy of AmTrust’s capital because of its significant
                      exposure to ADC and high-risk residential mortgage loans and
                      deteriorating loan quality. OTS examiners warned AmTrust’s
                      board and management about the risk and recommended that
                      AmTrust establish appropriate concentration limits and capital
                      levels.

                      AmTrust board and management never fully addressed OTS’s
                      concerns, were unable to stop the mounting loan losses, and
                      were unsuccessful in recapitalizing the thrift. AmTrust’s failure
                      to fully act on OTS’s recommendations resulted in poor loan
                      quality and capital deterioration.


OTS’s Supervision of AmTrust
                      OTS performed timely examinations of AmTrust in accordance
                      with guidelines and identified significant concerns, but did not
                      take appropriate action soon enough to prevent a material loss
                      to the Deposit Insurance Fund. From 2005 to 2008, OTS’s
                      supervisory approach was to primarily rely on examiner
                      recommendations and matters requiring board attention (MRBA)
                      in the ROEs to communicate its concerns. In November 2008,
                      when OTS concluded that stronger action was needed to
                      address AmTrust’s problems, it issued a cease and desist (C&D)


5
  Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(December 14, 2006).

                      Material Loss Review of AmTrust Bank (OIG-11-076)               Page 6
                  order (a formal/public enforcement action) that required
                  AmTrust to, among other things, increase capital levels.
                  AmTrust could not comply with the C&D order’s capital
                  requirements.

                  Table 1 summarizes OTS’s examinations of AmTrust and related
                  enforcement actions from July 2005 to December 2009.

Table 1. Summary of OTS’s AmTrust Examinations and Enforcement Actions
                                                        Examination Results
Examination                                               No. of
start date          Total assets    CAMELS       No. of   recommendations/     Enforcement
and type            (in billions)   rating       MRBAs    corrective actions   actions
7/25/2005
(full-scope)               $14.8    2/222122       13            39            None
9/4/2006
(full-scope)               $17.2    2/232222       12            30            None
8/20/2007
(limited-scope)            $18.1    2/232222      N/A            N/A           None
                                                                               Memorandum
                                                                               of
                                                                               Understanding
10/15/2007                                                                     (MOU)
(full-scope)               $16.9    3/342321       10             6            7/15/2008
8/25/2008
(limited-scope)            $15.9    4/44343-      N/A            N/A           None
                                                                               11/19/2008
10/20/2008                                                                     C&D order
(full-scope)               $16.5    4/454533       10             14           issued
5/11/2009
(limited-scope)            $14.4    5/554543      N/A            N/A           None
7/6/2009
(limited-scope)            $11.4    5/554544      N/A            N/A           None
11/23/2009
(full-scope)               $11.4    5/555554        0             0            None
Source: OTS ROEs and Thrift Financial Reports.


                  OTS Should Have Taken Stronger Supervisory Action Sooner to
                  Address AmTrust’s Repeated Issues

                  From 2005 through 2007, OTS examiners identified AmTrust’s
                  concentration in ADC and high-risk residential mortgage loans
                  and were concerned with the thrift’s capital adequacy. Through
                  MRBAs and recommendations, OTS examiners repeatedly told
                  AmTrust to establish appropriate concentration limits and to
                  Material Loss Review of AmTrust Bank (OIG-11-076)                          Page 7
                       assess the need for additional capital. Despite OTS’s direction,
                       AmTrust failed to fully correct these areas. In July 2008, OTS
                       issued an MOU (an informal/non-public enforcement action) to
                       AmTrust to compel it to establish appropriate concentration
                       limits.

                       Through the MOU, OTS directed AmTrust to stop originating
                       reduced documentation residential mortgage loans. During the
                       August 2007 limited scope examination, OTS examiners
                       identified significant deterioration in these types of loans and
                       found they had higher delinquency rates than full-documentation
                       loans. Even so, OTS continued to allow AmTrust to originate
                       reduced documentation loans—$152 million from November
                       2007 through July 2008. We believe that AmTrust’s residential
                       mortgage loans would have experienced less deterioration had
                       OTS, instead, issued a C&D order that required AmTrust to
                       cease originating reduced documentation loans immediately
                       following the August 2007 limited scope examination.

                       OTS’s enforcement policy indicates formal actions are
                       appropriate for a number of situations, including when, among
                       other things, there are significant problems or weaknesses in
                       the thrift’s systems or controls, or when there is material
                       noncompliance despite prior commitments to take corrective
                       action. As stated above, AmTrust did not make corrections over
                       several years, despite OTS direction. OTS policy also indicates
                       that there is a strong presumption that savings associations
                       with a composite rating of 4 or 5 warrant formal enforcement
                       action. 6 An OTS examiner told us that in 2007 OTS assigned
                       AmTrust a composite CAMELS 3 rating rather than lowering it
                       to a 4 rating because loan losses had not materialized until the
                       end of the examination. In May 2008, OTS considered issuing a
                       formal enforcement action but ultimately decided to issue an
                       MOU instead because OTS believed thrift management could
                       correct the problems and because of management’s
                       commitment to raise a large volume of new capital. This
                       conclusion did not seem to be based on sound evidence,
                       considering that the thrift’s management had not corrected
                       problems over the several years immediately preceding this

6
    Examination Handbook (July 2008).

                       Material Loss Review of AmTrust Bank (OIG-11-076)              Page 8
examination. It should also be noted that at the time, FDIC
disagreed about the rating and believed the thrift warranted a
CAMELS 4 rating.

The July 2008 MOU was not effective as AmTrust failed to
improve. OTS took more forceful action in November 2008
when it terminated the MOU and issued a C&D order that
required AmTrust to maintain higher capital levels. AmTrust
could not comply with the C&D order’s capital requirements.
OTS downgraded AmTrust’s rating to a 4 in September 2008
and a 5 in May 2009.

OTS Appropriately Used PCA

The purpose of PCA is to resolve the problems of insured
depository institutions with the least possible long-term loss to
the Deposit Insurance Fund. PCA requires federal banking
agencies to take certain actions when an institution’s capital
drops to certain levels. PCA also gives regulators flexibility to
supervise institutions based on criteria other than capital levels
to help reduce deposit insurance losses caused by unsafe and
unsound practices.

Although we determined that OTS should have acted more
forcefully and sooner to address AmTrust’s unsafe and unsound
practices, we concluded that OTS appropriately used its
authority under PCA. Specifically, on November 4, 2009, OTS
timely notified AmTrust that it had fallen into the significantly
undercapitalized PCA category based on AmTrust’s thrift
financial report of September 30, 2009. This was the first thrift
financial report indicating that the thrift was less than
adequately capitalized. The PCA required AmTrust to file a
capital restoration plan with OTS by November 30, 2009. On
December 1, 2009, AmTrust informed OTS that its efforts to
raise capital were unsuccessful, and that there were no known
near-term investors or acquirers. As a result, OTS closed
AmTrust and appointed FDIC as receiver on December 4, 2009.




Material Loss Review of AmTrust Bank (OIG-11-076)                Page 9
                     OTS’s Internal Failed Bank Review

                     In accordance with its policy, OTS performed an internal review
                     of AmTrust’s failure to determine the causes of failure, evaluate
                     its supervision, and provide recommendations. 7 Similar to what
                     we found, the OTS review determined that AmTrust’s failure
                     was caused by its high concentrations and rapid growth in ADC
                     loans and high-risk residential mortgage loans, such as interest-
                     only, reduced documentation, and subprime loans. Many of
                     AmTrust’s loans were concentrated in California, Arizona,
                     Florida, and Nevada, which suffered significant declines in real
                     estate values in recent years. As a result, AmTrust experienced
                     increasing levels of nonperforming and adversely classified loans
                     that required increasing ALLL provisions. This resulted in the
                     erosion of the AmTrust’s capital to unsafe and unsound levels.

                     Although the review found that OTS provided regular oversight
                     of AmTrust, it also determined that OTS could have taken more
                     proactive steps to limit or restrict the institution's
                     concentrations in higher-risk lending activities. Furthermore,
                     OTS could have required AmTrust to hold higher levels of
                     capital to support the additional risks associated with its
                     concentrations in higher-risk lending programs. The review
                     recommended that OTS consider supplementing its guidance to
                     promote examiner awareness and consistency regarding capital
                     expectations for thrifts with concentrations of higher-risk loans.
                     The internal review findings are consistent with the results of
                     our material loss review.


Recommendations
                     We are not making any new recommendations in this report,
                     but are reaffirming recommendations made in previous MLR
                     reports of OTS-regulated thrifts regarding concentration limits.

                     In our June 2009 MLR report on Downey Savings and Loan, FA,
                     we reported that the a primary causes of the thrift’s failure was


7
 The scope of the review focused primarily on OTS’s supervision from December 2001 through
December 2009.

                     Material Loss Review of AmTrust Bank (OIG-11-076)                       Page 10
                      its high concentrations in single-family residential loans which
                      included concentrations in option ARMs, reduced
                      documentation loans, subprime loans, and loans with layered
                      risk. 8 Also issued in June 2009, our MLR report on PFF Bank
                      and Trust reported that a primary cause of failure was its high
                      concentration in construction and land loans and related credit
                      losses. 9 In both of these reports, we recommended, among
                      other things, that OTS direct examiners to closely review and
                      monitor thrifts that refuse to establish appropriate limits for
                      concentrations that pose significant risk and pursue corrective
                      action when concentration limits are not reasonable. In the
                      Downey report, we also recommended that OTS assess the
                      need for more guidance for examiners on determining materiality
                      of concentrations and determining appropriate examiner
                      response to high-risk concentrations.

                      In our April 2009 MLR report of Ameribank, Inc., we reported
                      that a primary cause of failure was rapid growth assets and
                      high-risk concentrations and, regarding concentration limits,
                      recommended that OTS remind examiners of the risks
                      associated with high-risk concentrations. We also recommended
                      that examiners conduct more thorough loan sampling from the
                      portfolio if they identify a rapid increase in concentration. 10

                      In our September 2009 MLR report of Suburban Federal Saving
                      Bank, we reported that Suburban failed primarily because of
                      significant loan delinquencies and losses in speculative and
                      high-risk ADC loans. 11 In the report, we also reported that OTS
                      identified problems early at the thrift but relied primarily on
                      examiner recommendations and MRBAs in the ROEs to correct
                      problems. OTS later took informal and then formal enforcement
                      action against Suburban but by then it was too late to prevent
                      the thrift from failing. We recommended that OTS ensure
                      examiners conduct timely and adequately scoped field visits to
                      determine whether thrifts with repeat problems have taken

8
  Safety and Soundness: Material Loss Review of Downey Savings and Loan, FA, OIG-09-039 (June
15, 2009).
9
  Safety and Soundness: Material Loss Review of PFF Bank and Trust, OIG-09-038 (June 12, 2009).
10
   Safety and Soundness: Material Loss Review of Ameribank, Inc., OIG-09-036 (April 7, 2009).
11
   Safety and Soundness: Material Loss Review of Suburban Federal Savings Bank, OIG-09-047
(September 11, 2009).

                      Material Loss Review of AmTrust Bank (OIG-11-076)                     Page 11
appropriate corrective action. In the event that the field visits
find that corrective action has not been taken, examiners should
be instructed to elevate the supervisory response, including the
taking of enforcement action when necessary.

The failure of AmTrust was another case in which a thrift failed
primarily because of its high-risk loan concentrations. Therefore,
we reaffirm the recommendations made in these four MLR
reports.

                                 ******

We appreciate the courtesies and cooperation provided to our
staff during the audit. If you wish to discuss the report, you
may contact me at (617) 223-8640 or Mark Ossinger, Audit
Manager, at (617) 223-8643. Major contributors to this report
are listed in appendix 4.


/s/
Donald P. Benson
Audit Director




Material Loss Review of AmTrust Bank (OIG-11-076)              Page 12
                        Appendix 1
                        Objectives, Scope, and Methodology


                        We conducted this material loss review of AmTrust Bank
                        (AmTrust), of Cleveland, Ohio, in response to our mandate under
                        section 38(k) of the Federal Deposit Insurance Act. 12 This section
                        provides that if the Deposit Insurance Fund incurs a material loss
                        with respect to an insured depository institution, the inspector
                        general for the appropriate federal banking agency is to prepare a
                        report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38;
                        •    makes recommendations for preventing any such loss in the
                             future.

                        At the time of AmTrust’s failure, on December 4, 2009, section
                        38(k) defined a loss as material if it exceeded the greater of
                        $25 million or 2 percent of the institution’s total assets. We
                        initiated a material loss review of AmTrust based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC),
                        which at the time of failure was $2 billion. As of March 31, 2011,
                        FDIC estimated that the loss to the Deposit Insurance Fund would
                        be $2.5 billion.

                        Our objectives were to determine the causes of AmTrust’s failure;
                        assess the Office of Thrift Supervision’s (OTS) supervision of the
                        thrift, including implementation of the PCA provisions of section
                        38; and make recommendations for preventing such a loss in the
                        future. To accomplish our review, we conducted fieldwork at
                        OTS’s regional office in Chicago, Illinois, and OTS’s field offices in
                        Cleveland and Columbus, Ohio. We interviewed field office
                        personnel. We performed work at FDIC’s Division of Resolutions
                        and Receiverships in Cleveland, Ohio, and interviewed personnel
                        involved in AmTrust’s closing and receivership, staff of FDIC’s field
                        office in Columbus, Ohio, and staff of FDIC’s regional office in
                        Chicago, Illinois. We conducted our fieldwork from February 2010
                        through June 2010.



12
     12 U.S.C. § 1831o(k).

                        Material Loss Review of AmTrust Bank (OIG-11-076)               Page 13
Appendix 1
Objectives, Scope, and Methodology


To assess the adequacy of OTS’s supervision of AmTrust, we
performed the following work:

•   We reviewed OTS’s supervisory files and records for AmTrust
    from 2005 through 2009. We analyzed examination reports,
    supporting workpapers, and related supervisory correspondence
    to gain an understanding of the problems identified, the
    approach and methodology OTS used to assess the thrift’s
    condition, and the regulatory action OTS used to compel thrift
    management to address deficient conditions.

•   We interviewed and discussed various aspects of the
    supervision of AmTrust with OTS officials and examiners to
    obtain their perspective on the thrift’s condition and the scope
    of the examinations. We also interviewed FDIC officials
    responsible for monitoring AmTrust for federal deposit insurance
    purposes.

•   We interviewed personnel from FDIC’s Division of Resolutions
    and Receiverships involved in the receivership process, which
    was conducted before and after AmTrust’s closure and
    appointment of a receiver.

•   We assessed OTS’s actions based on its internal guidance and
    requirements of the Federal Deposit Insurance Act (12 U.S.C. §
    1811 et seq.).

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of AmTrust Bank (OIG-11-076)             Page 14
                       Appendix 2
                       Background


                       History of AmTrust Bank

                       AmTrust Bank (AmTrust), Cleveland, Ohio, was established in
                       1889 as Ohio Savings and Loan Company. The thrift acquired
                       AmTrust Bank, Boca Raton, Florida, in April 1995 and changed its
                       name to AmTrust Bank in April 2007. AmTrust was a nationwide
                       originator of home mortgages and offered loans for land
                       acquisition, development, and construction. At the time of its
                       failure, on December 4, 2009, AmTrust had approximately $11.4
                       billion in assets and 65 branches located in Ohio, Florida, and
                       Arizona.

                       AmTrust was a wholly owned subsidiary of AmTrust Financial
                       Corporation, which was closely held by one family. The boards and
                       senior management at AmTrust and AmTrust Financial Corporation
                       were comprised of several family members, including the Chairman
                       of the Board and President of AmTrust.

                       OTS Assessments Paid by AmTrust

                       OTS funds its operations in part through semiannual assessments
                       on savings associations. OTS determines each institution’s
                       assessment by adding together three components reflecting the
                       size, condition, and complexity of an institution. OTS computes the
                       size component by multiplying an institution’s total assets, as
                       reported on its thrift financial report, by the applicable assessment
                       rate. The condition component is a percentage of the size
                       component and is imposed on institutions that have a 3, 4, or 5
                       CAMELS composite rating. OTS imposes a complexity component
                       if (1) a thrift administers more than $1 billion in trust assets; (2)
                       the outstanding balance of assets fully or partially covered by
                       recourse obligations or direct credit substitutes exceeds
                       $1 billion, 13 or (3) the thrift services over $1 billion of loans for
                       others. OTS calculates the complexity component by multiplying
                       set rates by the amounts by which an association exceeds each
                       threshold. Table 2 shows the assessments that AmTrust paid to
                       OTS from 2005 through 2009.

13
  Direct credit substitutes arise from an arrangement in which a bank assumes, in form or in substance,
credit risk associated with an on- or off-balance sheet asset or exposure that was not previously owned
by the bank (that is, it was a third-party asset), and the risk assumed exceeds the pro-rata share of the
bank's interest in the third-party asset.

                       Material Loss Review of AmTrust Bank (OIG-11-076)                         Page 15
Appendix 2
Background




 Table 2: Assessments Paid by AmTrust to OTS 2005–2009
 Billing Period               Exam Rating      Amount Paid
 1/1/2005 - 6/30/2005              2            $ 995,884
 7/1/2005 - 12/31/2005             2            $ 1,124,887
 1/1/2006 - 6/30/2006              2            $ 1,236,027
 7/1/2006 - 12/31/206              2            $ 1,230,734
 1/1/2007 - 6/30/2007              2            $ 1,312,678
 7/1/2007 - 12/31/2007             2            $ 1,377,316
 1/1/2008 - 6/30/2008              3            $ 1,958,067
 7/1/2008 - 12/31/2008             3            $ 2,017,444
 1/1/2009 - 6/30/2009              4            $ 2,561,477
 7/1/2009 - 12/31/2009             5            $ 2,338,642
 Source: OTS.


Number of OTS Staff Hours Spent Examining AmTrust

Table 3 shows the number of OTS staff hours spent examining
AmTrust from 2005 to 2009.

Table 3. Number of OTS Staff Hours Spent Examining AmTrust 2005-2009
 Examination
 start date                     Examination type             Examination hours
 7/25/2005                        Full-scope                            2,511
 11/17/2005                     Limited-scope                              18
 2/24/2006                      Limited-scope                                7
 7/31/2006                      Limited-scope                              13
 9/04/2006                        Full-scope                            3,913
 5/21/2007                      Limited-scope                              16
 8/20/2007                      Limited-scope                             410
 10/15/2007                       Full-scope                            4,214
 8/25/2008                      Limited-scope                           1,117
 10/20/2008                       Full-scope                            4,167
 11/03/2008                     Limited-scope                             411
 5/04/2009                      Limited-scope                             212
 5/11/2009                      Limited-scope                             613
 5/12/2009                      Limited-scope                                8
 6/04/2009                      Limited-scope                              18
 7/06/2009                      Limited-scope                           2,456
 11/23/2009                       Full-scope                              183
 11/25/2009                     Limited-scope                              16
 Source: OTS. Data reflects total hours for safety and soundness examinations,
 information technology examinations, and compliance examinations.




Material Loss Review of AmTrust Bank (OIG-11-076)                                Page 16
Appendix 3
Management Response




Material Loss Review of AmTrust Bank (OIG-11-076)   Page 17
Appendix 4
Major Contributors to This Report




Boston Audit Office

Mark Ossinger, Audit Manager
Jenny Hu, Auditor-in-Charge
Jason Madden, Auditor
Kaytlin Kovach, Auditor

Washington, DC

Michelle Littlejohn, Referencer




Material Loss Review of AmTrust Bank (OIG-11-076)   Page 18
Appendix 5
Report Distribution


Department of the Treasury

   Deputy Secretary of the Treasury
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner

U.S. Senate

   Chairman and Ranking Member
   Committee on Banking, Housing, and Urban Affairs

   Chairman and Ranking Member
   Committee on Finance

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Financial Services

Federal Deposit Insurance Corporation

   Chairman
   Inspector General

U.S. Government Accountability Office

   Comptroller General of the United States




Material Loss Review of AmTrust Bank (OIG-11-076)        Page 19
